No. 20-6490

IN THE
SUPREME COURT OF THE UNITED STATES

MARIO ALLAN MONTANO, APPLICANT,
v.
OAKLAND COUNTY CIRCUIT COURT JUDGE, RESPONDENT.

EMERGENCY APPLICATION FOR A STAY OF EXECUTION PENDING THE
DISPOSITION OF THE PETITION FOR WRIT OF CERTIORARI
To the HONORABLE BRETT M. KAVANAGH, Associate Justice of the Supreme Court
of the United States of America and Circuit Justice for the 6th Circuit:

Mario Allan Montano
Applicant, In Pro Se
3647 Springdale Dr.
Little River, SC 29566
(843) 582-7503
almontano29582@gmail.com
December 18, 2020

LIST OF PARTIES
Pursuant to SCt. Rule 14, the following is a list of all parties to the proceeding in the court
whose judgment is sought to be reviewed:
1. APPLICANT - Mario Allan Montano, a man naturally born in the United
States.
2. RESPONDENT - State of Michigan, Oakland County Circuit Court Judge, c/o
Honorable Kameshia D. Gant.

LIST OF CASES
1. Montano v. Montano, 2012-802216-DO (6th Mich. Cir. Ct. March 28, 2013).
Judgment entered on May 6, 2013.
2. Wimmer v. Montano, 2017-854298-PP (6th Mich. Cir. Ct. June 20, 2017).
Judgment entered on June 20, 2017.
3. In Re Montano, 353802 (Mich. Ct. App. July 14, 2020). Order entered on July
14, 2020.
4. In Re Montano, 353957 (Mich. Ct. App. August 11, 2020). Order entered on
August 11, 2020.
5. In Re Montano, 161475, 161670 (Mich. October 5, 2020). Order entered on
October 5, 2020.
6. In Re Montano, 161622, 161848 (Mich. October 5, 2020). Order entered on
October 5, 2020.

TABLE OF CONTENTS
LIST OF PARTIES

ii

LIST OF CASES

ii

INDEX OF APPENDICES

iv

TABLE OF AUTHORITIES CITED

v

OPINIONS BELOW,

1

STAY OF EXECUTION DENIED BY LOWER COURTS

1

JURISDICTION

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

3

APPLICANT IS INDIGENT ACCORDING TO THE MICHIGAN SUPREME COURT.....4
ORDERS TO STAY IN THE MICHIGAN COURT OF APPEALS

4

ORDERS TO STAY IN THE MICHIGAN SUPREME COURT

7

REASONS FOR GRANTING THE APPLICATION

8

CONCLUSION

9

iii

INDEX OF APPENDICES
Appendix A

Decision of the Michigan Court of Appeals Dismissing No. 353802 on
July 14, 2020.

Appendix B

Decision of the Michigan Court of Appeals Dismissing No. 353957 on
August 11, 2020.

Appendix C

Decision of the Michigan Supreme Court Dismissing No. 161475,
161670 on October 5, 2020.

Appendix D

Decision of the Michigan Supreme Court Dismissing No. 161622,
161848 on October 5, 2020.

Appendix E

Applicant’s Motion for a Stay of Execution in No. 353802 filed with the
Michigan Court of Appeals on December 6, 2020.

Appendix F

Applicant’s Motion for a Stay of Execution in No. 353957 filed with the
Michigan Court of Appeals on December 6, 2020.

Appendix G

Michigan Court of Appeal’s rejection of Applicant’s Motion for a Stay
in No. 353802 on December 7, 2020.

Appendix H

Michigan Court of Appeal’s rejection of Applicant’s Motion for a Stay
in No. 353957 on December 7, 2020.

Appendix I

Applicant’s Motion for a Stay of Execution in No. 161475, 161670 filed
with the Michigan Supreme Court on December 7, 2020.

Appendix J

Applicant’s Motion for a Stay of Execution in No. 161622, 161848 filed
with the Michigan Supreme Court on December 7, 2020.

Appendix K

Michigan Supreme Court’s rejection of Applicant’s Motion for a Stay
in No. 161475, 161670 on December 7, 2020.

Appendix L

Michigan Supreme Court’s rejection of Applicant’s Motion for a Stay
in No. 161622, 161848 on December 7, 2020.

Appendix M

Record of Michigan Court of Appeals Case 353802

Appendix N

Record of Michigan Court of Appeals Case 353957

Appendix O

Record of Michigan Supreme Court Case 161475, 161670

Appendix P

Record of Michigan Supreme Court Case 161622, 161848

IV

TABLE OF AUTHORITIES CITED
PAGE NUMBER

Constitutional Law
3, 8
3,8

U.S. Const. Amend. V........
U.S. Const. Amend. XIV § 1

Statutory Law
3
4

28 U.S.C. §2101(0MCL 600.244(1 )(d).

Court Rules
5,6

MCR 7.303(B)(1)
MCR 7.315(D)....
SCt. Rule 14........
SCt. Rule 23.......

7
3

v

No. 20-6490
IN THE
SUPREME COURT OF THE UNITED STATES
EMERGENCY APPLICATION FOR A STAY PENDING THE DISPOSITION OF A
PETITION FOR WRIT OF CERTIORARI
The Applicant prays that a stay of execution pending the disposition of the Petition for Writ
of Certiorari be issued on the judgments below.
OPINIONS BELOW
The unpublished judgments of the Michigan Supreme Court (“MSC”), the court of last
resort in the State of Michigan to be addressed are:
1. Decision dismissing case No. 161475, 161670 and issuing a filing injunction
against the Applicant issued on October 5,2020 (Appendix C).
2. Decision dismissing case No. 161662, 161848 and issuing a filing injunction
against the Applicant issued on October 5, 2020 (Appendix D).
The unpublished judgments of the Michigan Court of Appeals (“COA”) to be addressed
are:
1. Decision dismissing case No. 353802, sanctioning the Applicant $750 and
issuing a filing injunction against the Applicant on July 14, 2020 (Appendix
A).
2. Decision dismissing case No. 353957, sanctioning the Applicant $750 and
issuing a filing injunction against the Applicant on August 11, 2020 (Appendix
B).
STAY OF EXECUTION DENIED BY LOWER COURTS
The Applicant filed a motion seeking a stay of execution of the Michigan Court of Appeals
(“COA”) decision in No. 353802 pending disposition of the Petition for Writ of Certiorari on
December 6, 2020 (Appendix E at 2 ^ B). The Applicant filed a motion seeking a stay of execution

of the COA decision in No. 353957 pending disposition of the Petition for Writ of Certiorari on
December 6, 2020 (Appendix F at 2 B). The COA rejected both of the Applicant’s motions on
December 7, 2020 (Appendices, G, H). The COA provided no basis for the rejection of the
motions. The COA denied the Applicant’s petition for a stay of its orders pending petition for
certiorari by its actions on December 7, 2020.
The Applicant filed a motion seeking a stay of execution of the Michigan Supreme Court
(“MSC”) decision in No. 161475,161670 pending disposition of the Petition for Writ of Certiorari
on December 7, 2020 (Appendix I). The motion sought a stay on both the order issued by the
MSC in No. 161475, 161670 as well as the COA decision in No. 353802 (Appendix I at 5

B-

C).
The Applicant filed a motion seeking a stay of execution of the MSC decision in No.
161622, 161848 pending disposition of the Petition for Writ of Certiorari on December 7, 2020
(Appendix J). The motion sought a stay on both the order issued by the MSC in No. 161622,
161848 as well as the COA decision in No. 353957 (Appendix J at 5 fU B-C).
The MSC rejected both motions stating that they were rejected for previous reasons stated.
The previous reasons stated were that the Applicant had not paid the sanctions specified in the
orders in Appendices C and D for which he sought a stay of execution. The MSC’s actions denied
the Applicant’s petitions for a stay of execution.
All applicable lower courts have denied the Applicant’s petitions for a stay of execution of
the judgments pending disposition of the Petition for Writ of Certiorari for which the Applicant
seeks a stay from this Court.

2

JURISDICTION
The Applicant filed a Petition for Writ of Certiorari appealing the orders of the MSC in
case Nos. (161475, 161670), (161622, 161848) on November 11, 2020. The case of Mario Allan
Montano v. Oakland County Circuit Court Judge] (“this case”) was docketed with the Court on
December 1,2020.
This Court may grant the requested stay of execution pursuant to SCt. Rule 23.1. This
application is presented to this Court pursuant to SCt. Rule 23.2 and 28 U.S.C. §2101(f). The
Applicant has shown his attempt and failure to obtain a stay from all lower courts who could grant
such a stay meeting the expectations in SCt. Rule 23.3.
This Court has jurisdiction and all expectations have been met for this Court to issue a
ruling on this application for a stay of execution.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1. U.S. Const. Amend. V.
2. U.S. Const. Amend. XIV § 1.

STATEMENT OF THE CASE
The Honorable Kameshia D. Gant (“the Respondent”) was assigned to the case of
Montano v. Montano2 (“2012-802216-DO”) and Wimmer v. Montano3 (“2017-854298-PP”) on
May 4, 2019.

Mario A Han Montano v. Oakland County Circuit Court Judge, No. 20-6490 (U.S.).
2 Montano v. Montano, 2012-802216-DO (6th Mich. Cir. Ct. March 28, 2013).
3 Wimmer v. Montano, 2017-854298-PP (6th Mich. Cir. Ct. June 20, 2017).

3

APPLICANT IS INDIGENT ACCORDING TO THE MICHIGAN SUPREME COURT
Chief Justice Bridget M. McCormack of the MSC issued an order granting the Applicant a
waiver of filing fees in the case of Wimmer v. Montano4 (“No. 161121”) on March 18, 2020. The
fee to file a regular motion in the MSC is $75 pursuant to MCL 600.244(1 )(d). By issuing such
an order, Chief Justice McCormack affirmed that the Applicant could not afford $75 to pay for a
motion fee.
ORDERS TO STAY IN THE MICHIGAN COURT OF APPEALS
Mario Allan Montano (“the Applicant”) filed a Complaint for Writ of Superintending
Control of the Respondent and a Motion to Waive Fees with the COA on June 11,2020. The case
of In Re Montano5 (“No. 353802”) was initiated with the COA on June 11, 2020. The Record of
No. 353802 is presented in Appendix M.6 The Applicant paid no fees for his filing. The Motion
to Waive Fees contained the same evidence that Chief Justice McCormack had seen to grant the
Applicant a fee waiver on March 18, 2020. The record shows that the Respondent has not filed a
single document into No. 353802 since the day the case was initiated. No. 353802 is uncontested.
The Honorable Elizabeth L. Gleicher (“Judge Gleicher”) issued an order denying the
Applicant’s motion to waive fees in No. 353802 on June 16, 2020. The order required the
Applicant to pay the conditionally waived filing fees by July 7, 2020 {Id. at 1, Event 7) . The
Applicant appealed Judge Gleicher’s order by filing an interlocutory application for leave to appeal
and a motion to waive fees with the MSC on June 16, 2020. The case of In Re Montano7 (“No.
161475”) was initiated with the MSC on June 16, 2020. The MSC obtained discretionary review

4 Wimmer v. Montano, 161121 (Mich. May 26, 2020).
5 In Re Montano, 353802 (Mich. Ct. App. July 14, 2020).
6 Michigan Supreme Court Events redacted, actions mentioned in this application are highlighted.
7 In Re Montano, 161475 (Mich. October 5, 2020).

4

jurisdiction over Judge Gleicher’s order denying a fee waiver pursuant to MCR 7.303(B)(1). Judge
Gleicher’s order denying a fee waiver had not reached final disposition as of June 16, 2020.
The Applicant filed a filed a Complaint for Writ of Superintending Control of the
Respondent and a Motion to Waive Fees with the COA on June 25, 2020.
Montano8 (“No. 353957”) was initiated with the COA on June 25, 2020.

The case of In Re
The record of Case

353957 is presented in Appendix N.9 The Motion to Waive Fees contained the same evidence that
Chief Justice McCormack had seen to grant the Applicant a fee waiver on March 18, 2020. The
Applicant paid no fees for his filing. The record shows that the Respondent has not filed a single
document into No. 353957 since the day the case was initiated. No. 353957 is uncontested.
The Honorable Christopher M. Murray (“Chief Judge Murray”) issued an order
dismissing uncontested case No. 353802 for the Applicant’s failure to pay court fees on July 14,
2020 (Appendix A). The order sanctioned the Applicant $750 and required that the Clerk reject
all Applicant filings in non-criminal cases till the sanction was paid. The Applicant is indigent
and cannot afford to pay the sanction as affirmed by the MSC on March 18, 2020.
The MSC had jurisdiction over the order regarding the fee waiver denial that Chief Judge
Murray executed upon based on case No. 161475. Chief Judge Murray executed on a non-final
order that the MSC had jurisdiction over. The Petition reveals that Chief Judge Murray had no
legal basis for ordering sanctions or even issuing an order in No. 353802 on July 14, 2020. The
Applicant has been deprived of his due process right to appeal or defend himself in non-criminal
COA cases since July 14, 2020 based on an order issued against him without any jurisdiction.
Judge Gleicher issued an order denying the Applicant’s motion to waive fees in No. 353957
on July 14, 2020 (Appendix N at 1, Event: 6). The order required the Applicant to pay the

8 In Re Montano, 353957 (Mich. Ct. App. August 11, 2020).
9 Michigan Supreme Court Events redacted, actions mentioned in this application are highlighted.

5

conditionally waived filing fees by August 4, 2020. The Applicant appealed Judge Gleicher’s
order by filing an interlocutory application for leave to appeal and a motion to waive fees with the
MSC on July 15, 2020. The case of In Re Montano10 (“No. 161622”) was initiated with the MSC
on July 15.2020. The MSC obtained discretionary review jurisdiction over Judge Gleicher’s order
denying a fee waiver pursuant to MCR 7.303(B)(1). Judge Gleicher’s order denying a fee waiver
had not reached final disposition as of July 15, 2020 .
The Applicant appealed Chief Judge Murray’s July 14, 2020 order in No. 353802
(Appendix A) by filing an Application for Leave to Appeal and a Motion to Waive Fees with the
MSC on July 19, 2020. The case of In Re Montano11 (“No. 161475,161670”) was initiated with
the MSC on July 19, 2020. The record of No. 161475, 161670 is presented in Appendix O.12
Chief Judge Murray issued an order dismissing uncontested case No. 353957 for the
Applicant’s failure to pay court fees on August 11,2020 (Appendix B). The order sanctioned the
Applicant $750 and requires that the Clerk reject all Applicant filings in non-criminal cases till the
sanctions have been paid. The Applicant is indigent and cannot afford to pay the sanction
according to the MSC.
The MSC had jurisdiction over the order regarding the denial of the fee waiver that Chief
Judge Murray executed on based on case No. 161622. Chief Judge Murray executed on a non­
final order that the MSC had jurisdiction over. The Petition reveals that Chief Judge Murray had
no legal basis for ordering sanctions or even issuing an order in No. 353957 on August 11, 2020.

10 In Re Montano, 161622 (Mich. October 5, 2020).
n In Re Montano, 161475,161670 (Mich. October 5, 2020).
12 Michigan Court of Appeals Events redacted, actions mentioned in this application are highlighted.

6

ORDERS TO STAY IN THE MICHIGAN SUPREME COURT
The Applicant appealed Chief Judge Murray’s August 11, 2020 order in No. 353957 by
filing an Application for Leave to Appeal and a Motion to Waive Fees with the MSC on August
11, 2020. The case of In Re Montanon (“No. 161622, 161848”) was initiated with the MSC on
August 11,2020. The record of No. 161622, 161848 is presented in Appendix P.14
The records of No. 161475, 161670 (Appendix O) and No. 161622, 161848 (Appendix P)
both reveal the following facts:
•

The opposing party did not file a single document into the case and the case was
uncontested.

•

All filings fees for the Applicant were conditionally waived pending the MSC’s decision
on the motions to waive fees.

•

The MSC failed to issue an order on the motions to waive fees.

The Applicant had not paid fees and the fees had not been waived in both MSC cases as of
October 5,2020. “A motion may not be decided or an order entered by the Court unless all required
documents have been filed and the requisite fees have been paid.” MCR 7.315(D). The MSC did
not have jurisdiction in both cases to issue an order other than one deciding the motions to waive
fees in either case as of October 5, 2020.
The MSC issued orders dismissing No. 161475, 161670 (Appendix C) and No. 161622,
161848 (Appendix D) on October 5, 2020. Both orders do not state any legal authority for the
issuance of the order. Both orders state that the cases were dismissed because the Applicant did
not pay the fees. Each order stated that the Applicant was required to pay sanctions totaling SI 500
in two other cases to avoid the clerk of the Court rejecting filings.

n In Re Montano, 161475, 161670 (Mich. October 5, 2020).
14 Michigan Court of Appeals Events redacted, actions mentioned in this application are highlighted

7

The Applicant is indigent and cannot afford to pay $1500 in sanctions to the Clerk of the
MSC. As a result of the MSC’s orders on October 5, 2020, the Applicant has been deprived of
any ability to appeal or defend himself in any civil action with the MSC.
The MSC made an error of fact stating that the Applicant owed filing fees. The MSC had
failed to rule on the motions to waive fees and did not have jurisdiction to issue either order. The
MSC deprived the Applicant of his right to due process and equal protection under the law as
stated in U.S. Const. Amend. XIV § 1 by dismissing his two cases. The Applicant has been
deprived of his right to appeal and defend himself in the MSC based on the violations.
The actions by the COA in issuing the orders in Appendices A & B were in violation of
the COA’s jurisdiction to rule since the MSC had jurisdiction when the orders were issued. The
COA wrongly sanctioned the Applicant a total of $1500 violating the Applicant’s right to not being
deprived of property stated in U.S. Const. Amend. V. The orders by the COA also deprived the
Applicant of equal protection under the law as stated in U.S. Const. Amend. XIV § 1. Asa result,
the Applicant has been deprived of any means to appeal to or defend himself in the COA.

REASONS FOR GRANTING THE APPLICATION
The Petition for Writ of Certiorari associated with this case is straightforward and shows
two uncontested cases in both the COA and the MSC resulting in orders sanctioning the indigent
Applicant $1500 along with depriving the Applicant of any ability to appeal or defend himself in
either court. Both the COA and the MSC violated jurisdiction and the Applicant’s constitutional
rights in issuing the orders. The Petition is uncontestable, and relief should just be granted.
The deprivation of a poor citizen to even defend himself in any court of law is a travesty
of justice and even more so with the appellate courts in the state of Michigan.
Justice requires this Court to issue a stay of execution of the orders in Appendices A-D.

8

CONCLUSION
The evidence, facts, impact and legal authority overwhelmingly require that a stay of
execution of the decisions by the Michigan Supreme Court in Appendices C-D and the decisions
by the Michigan Court of Appeals in Appendices A-B be stayed pending the disposition of the
Petition for a Writ for Certiorari. The Applicant prays that this Court will grant him the needed
and justified stay of execution.
Respectfully submitted,

Mario Allan Montano, Applicant
Date: December 18, 2020

9

No. 20-6490

IN THE

SUPREME COURT OF THE UNITED STATES

MARIO ALLAN MONTANO, APPLICANT,
v.
OAKLAND COUNTY CIRCUIT COURT JUDGE, RESPONDENT.

EMERGENCY APPLICATION FOR A STAY OF EXECUTION PENDING THE
DISPOSITION OF THE PETITION FOR WRIT OF CERTIORARI
To the HONORABLE BRETT M. KAVANAGH, Associate Justice of the Supreme Court
of the United States of America and Circuit Justice for the 6th Circuit:

Mario Allan Montano
Applicant, In Pro Se
3647 Springdale Dr.
Little River, SC 29566
(843) 582-7503
almontano29582@;gmai1.com
December 18, 2020

LIST OF PARTIES
Pursuant to SCt. Rule 14, the following is a list of all parties to the proceeding in the court
whose judgment is sought to be reviewed:
1. APPLICANT - Mario Allan Montano, a man naturally born in the United
States.
2. RESPONDENT - State of Michigan, Oakland County Circuit Court Judge, do
Honorable Kameshia D. Gant.

LIST OF CASES
1. Montano v. Montano, 2012-802216-DO (6th Mich. Cir. Ct. March 28, 2013).
Judgment entered on May 6, 2013.
2. Wimmer v. Montano, 2017-854298-PP (6th Mich. Cir. Ct. June 20, 2017).
Judgment entered on June 20, 2017.
3. In Re Montano, 353802 (Mich. Ct. App. July 14, 2020). Order entered on July
14, 2020.
4. In Re Montano, 353957 (Mich. Ct. App. August 11, 2020). Order entered on
August 11, 2020.
5. In Re Montano, 161475, 161670 (Mich. October 5, 2020). Order entered on
October 5, 2020.
6. In Re Montano, 161622, 161848 (Mich. October 5, 2020). Order entered on
October 5, 2020.

ii

TABLE OF CONTENTS
LIST OF PARTIES

ii

LIST OF CASES

ii

INDEX OF APPENDICES

iv

TABLE OF AUTHORITIES CITED

v

OPINIONS BELOW

1

STAY OF EXECUTION DENIED BY LOWER COURTS

1

JURISDICTION

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

3

APPLICANT IS INDIGENT ACCORDING TO THE MICHIGAN SUPREME COURT

4

ORDERS TO STAY IN THE MICHIGAN COURT OF APPEALS

4

ORDERS TO STAY IN THE MICHIGAN SUPREME COURT

7

REASONS FOR GRANTING THE APPLICATION

8

CONCLUSION

9

iii

INDEX OF APPENDICES
Appendix A

Decision of the Michigan Court of Appeals Dismissing No. 353802 on
July 14, 2020.

Appendix B

Decision of the Michigan Court of Appeals Dismissing No. 353957 on
August 11, 2020.

Appendix C

Decision of the Michigan Supreme Court Dismissing No. 161475,
161670 on October 5, 2020.

Appendix D

Decision of the Michigan Supreme Court Dismissing No. 161622,
161848 on October 5, 2020.

Appendix E

Applicant’s Motion for a Stay of Execution in No. 353802 filed with the
Michigan Court of Appeals on December 6, 2020.

Appendix F

Applicant’s Motion for a Stay of Execution in No. 353957 filed with the
Michigan Court of Appeals on December 6, 2020.

Appendix G

Michigan Court of Appeal’s rejection of Applicant’s Motion for a Stay
in No. 353802 on December 7, 2020.

Appendix H

Michigan Court of Appeal’s rejection of Applicant’s Motion for a Stay
in No. 353957 on December 7, 2020.

Appendix I

Applicant’s Motion for a Stay of Execution in No. 161475, 161670 filed
with the Michigan Supreme Court on December 7, 2020.

Appendix J

Applicant’s Motion for a Stay of Execution in No. 161622, 161848 filed
with the Michigan Supreme Court on December 7, 2020.

Appendix K

Michigan Supreme Court’s rejection of Applicant’s Motion for a Stay
in No. 161475, 161670 on December 7, 2020.

Appendix L ' Michigan Supreme Court’s rejection of Applicant’s Motion for a Stay
in No. 161622, 161848 on December 7, 2020.
Appendix M

Record of Michigan Court of Appeals Case 353802

Appendix N

Record of Michigan Court of Appeals Case 353957

Appendix O

Record of Michigan Supreme Court Case 161475, 161670

Appendix P

Record of Michigan Supreme Court Case 161622, 161848

iv

TABLE OF AUTHORITIES CITED
PAGE NUMBER

Constitutional Law
U.S. Const. Amend. V........
U.S. Const. Amend. XIV § 1

3,8

3,8

Statutory Law
28 U.S.C. §2101(0MCL 600.244(1 )(d)

3
4

Court Rules
MCR 7.303(B)(1)
MCR 7.315(D)....
SCt. Rule 14.......
SCt. Rule 23.......

5,6
7
ii
3

v

No. 20-6490
IN THE
SUPREME COURT OF THE UNITED STATES
EMERGENCY APPLICATION FOR A STAY PENDING THE DISPOSITION OF A
PETITION FOR WRIT OF CERTIORARI
The Applicant prays that a stay of execution pending the disposition of the Petition for Writ
of Certiorari be issued on the judgments below.
OPINIONS BELOW
The unpublished judgments of the Michigan Supreme Court (“MSC”), the court of last
resort in the State of Michigan to be addressed are:
1. Decision dismissing case No. 161475, 161670 and issuing a filing injunction
against the Applicant issued on October 5,2020 (Appendix C).
2. Decision dismissing case No. 161662, 161848 and issuing a filing injunction
against the Applicant issued on October 5, 2020 (Appendix D).
The unpublished judgments of the Michigan Court of Appeals (“COA”) to be addressed
are:
1. Decision dismissing case No. 353802, sanctioning the Applicant $750 and
issuing a filing injunction against the Applicant on July 14, 2020 (Appendix
A).
2. Decision dismissing case No. 353957, sanctioning the Applicant $750 and
issuing a filing injunction against the Applicant on August 11, 2020 (Appendix
B).
STAY OF EXECUTION DENIED BY LOWER COURTS
The Applicant filed a motion seeking a stay of execution of the Michigan Court of Appeals
(“COA”) decision in No. 353802 pending disposition of the Petition for Writ of Certiorari on
December 6,2020 (Appendix E at 2 *[[ B). The Applicant filed a motion seeking a stay of execution

of the COA decision in No. 353957 pending disposition of the Petition for Writ of Certiorari on
December 6, 2020 (Appendix F at 2 f B). The COA rejected both of the Applicant’s motions on
December 7, 2020 (Appendices, G, H). The COA provided no basis for the rejection of the
motions. The COA denied the Applicant’s petition for a stay of its orders pending petition for
certiorari by its actions on December 7, 2020.
The Applicant filed a motion seeking a stay of execution of the Michigan Supreme Court
(“MSC”) decision inNo. 161475,161670 pending disposition ofthe Petition for Writ of Certiorari
on December 7, 2020 (Appendix I). The motion sought a stay on both the order issued by the
MSC in No. 161475, 161670 as well as the COA decision in No. 353802 (Appendix I at 5 ffl} BC).
The Applicant filed a motion seeking a stay of execution of the MSC decision in No.
161622, 161848 pending disposition of the Petition for Writ of Certiorari on December 7, 2020
(Appendix J). The motion sought a stay on both the order issued by the MSC in No. 161622,
161848 as well as the COA decision in No. 353957 (Appendix J at 5

B-C).

The MSC rejected both motions stating that they were rejected for previous reasons stated.
The previous reasons stated were that the Applicant had not paid the sanctions specified in the
orders in Appendices C and D for which he sought a stay of execution. The MSC’s actions denied
the Applicant’s petitions for a stay of execution.
All applicable lower courts have denied the Applicant’s petitions for a stay of execution of
the judgments pending disposition of the Petition for Writ of Certiorari for which the Applicant
seeks a stay from this Court.

2

JURISDICTION
The Applicant filed a Petition for Writ of Certiorari appealing the orders of the MSC in
case Nos. (161475, 161670), (161622, 161848) on November 11,2020. The case of Mario Allan
Montano v. Oakland County Circuit Court Judge' (“this case”) was docketed with the Court on
December 1, 2020.
This Court may grant the requested stay of execution pursuant to SCt. Rule 23.1. This
application is presented to this Court pursuant to SCt. Rule 23.2 and 28 U.S.C. §2101(f). The
Applicant has shown his attempt and failure to obtain a stay from all lower courts who could grant
such a stay meeting the expectations in SCt. Rule 23.3.
This Court has jurisdiction and all expectations have been met for this Court to issue a
ruling on this application for a stay of execution.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1. U.S. Const. Amend. V.
2. U.S. Const. Amend. XIV § 1.

STATEMENT OF THE CASE
The Honorable Kameshia D. Gant (“the Respondent”) was assigned to the case of
Montano v. Montano2 (“2012-802216-DO”) and Wimmer v. Montano3 (“2017-854298-PP”) on
May 4, 2019.

1 Mario A11an Montano v. Oakland County Circuit Court Judge, No. 20-6490 (U.S.).
2 Montano v. Montano, 2012-802216-DO (6th Mich. Cir. Ct. March 28, 2013).
3 Wimmer v. Montano, 2017-854298-PP (6th Mich. Cir. Ct. June 20, 2017).

3

APPLICANT IS INDIGENT ACCORDING TO THE MICHIGAN SUPREME COURT
Chief Justice Bridget M. McCormack of the MSC issued an order granting the Applicant a
waiver of filing fees in the case of Wimmer v. Montano4 (“No. 161121”) on March 18, 2020. The
fee to file a regular motion in the MSC is $75 pursuant to MCL 600.244(1 )(d). By issuing such
an order, Chief Justice McCormack affirmed that the Applicant could not afford $75 to pay for a
motion fee.
ORDERS TO STAY IN THE MICHIGAN COURT OF APPEALS
Mario Allan Montano (“the Applicant”) filed a Complaint for Writ of Superintending
Control of the Respondent and a Motion to Waive Fees with the COA on June 11, 2020. The case
of In Re Montano5 (“No. 353802”) was initiated with the COA on June 11, 2020. The Record of
No. 353802 is presented in Appendix M.6 The Applicant paid no fees for his filing. The Motion
to Waive Fees contained the same evidence that Chief Justice McCormack had seen to grant the
Applicant a fee waiver on March 18, 2020. The record shows that the Respondent has not filed a
single document into No. 353802 since the day the case was initiated. No. 353802 is uncontested.
The Honorable Elizabeth L. Gleicher (“Judge Gleicher”) issued an order denying the
Applicant’s motion to waive fees in No. 353802 on June 16, 2020. The order required the
Applicant to pay the conditionally waived filing fees by July 7, 2020 (Id. at 1, Event 7) . The
Applicant appealed Judge Gleicher’s order by filing an interlocutory application for leave to appeal
and a motion to waive fees with the MSC on June 16, 2020. The case of In Re Montano7 (“No.
161475”) was initiated with the MSC on June 16, 2020. The MSC obtained discretionary review

4 Wimmer v. Montano, 161121 (Mich. May 26, 2020).
5 In Re Montano, 353802 (Mich. Ct. App. July 14, 2020).
6 Michigan Supreme Court Events redacted, actions mentioned in this application are highlighted.
7 In Re Montano, 161475 (Mich. October 5, 2020).

4

jurisdiction over Judge Gleicher’s order denying a fee waiver pursuant to MCR 7.303(B)(1). Judge
Gleicher’s order denying a fee waiver had not reached final disposition as of June 16, 2020.
The Applicant filed a filed a Complaint for Writ of Superintending Control of the
Respondent and a Motion to Waive Fees with the COA on June 25, 2020.
Montano8 (“No. 353957”) was initiated with the COA on June 25, 2020.

The case of In Re
The record of Case

353957 is presented in Appendix N.9 The Motion to Waive Fees contained the same evidence that
Chief Justice McCormack had seen to grant the Applicant a fee waiver on March 18, 2020. The
Applicant paid no fees for his filing. The record shows that the Respondent has not filed a single
document into No. 353957 since the day the case was initiated. No. 353957 is uncontested.
The Honorable Christopher M. Murray (“Chief Judge Murray”) issued an order
dismissing uncontested case No. 353802 for the Applicant’s failure to pay court fees on July 14,
2020 (Appendix A). The order sanctioned the Applicant $750 and required that the Clerk reject
all Applicant filings in non-criminal cases till the sanction was paid. The Applicant is indigent
and cannot afford to pay the sanction as affirmed by the MSC on March 18, 2020.
The MSC had jurisdiction over the order regarding the fee waiver denial that Chief Judge
Murray executed upon based on case No. 161475. Chief Judge Murray executed on a non-final
order that the MSC had jurisdiction over. The Petition reveals that Chief Judge Murray had no
legal basis for ordering sanctions or even issuing an order in No. 353802 on July 14, 2020. The
Applicant has been deprived of his due process right to appeal or defend himself in non-criminal
COA cases since July 14, 2020 based on an order issued against him without any jurisdiction.
Judge Gleicher issued an order denying the Applicant’s motion to waive fees in No. 353957
on July 14, 2020 (Appendix N at 1, Event: 6). The order required the Applicant to pay the

8 In Re Montano, 353957 {Mich. Ct. App. August il, 2020).
9 Michigan Supreme Court Events redacted, actions mentioned in this application are highlighted.

5

conditionally waived filing fees by August 4, 2020. The Applicant appealed Judge Gleicher’s
order by filing an interlocutory application for leave to appeal and a motion to waive fees with the
MSC on July 15, 2020. The case of In Re Montano10 (“No. 161622”) was initiated with the MSC
on July 15, 2020. The MSC obtained discretionary review jurisdiction over Judge Gleicher’s order
denying a fee waiver pursuant to MCR 7.303(B)(1). Judge Gleicher’s order denying a fee waiver
had not reached final disposition as of July 15, 2020 .
The Applicant appealed Chief Judge Murray’s July 14, 2020 order in No. 353802
(Appendix A) by filing an Application for Leave to Appeal and a Motion to Waive Fees with the
MSC on July 19, 2020. The case of In Re Montano11 (“No. 161475, 161670”) was initiated with
the MSC on July 19, 2020. The record ofNo. 161475, 161670 is presented in Appendix O.12
Chief Judge Murray issued an order dismissing uncontested case No. 353957 for the
Applicant’s failure to pay court fees on August 11,2020 (Appendix B). The order sanctioned the
Applicant $750 and requires that the Clerk reject all Applicant filings in non-criminal cases till the
sanctions have been paid.

The Applicant is indigent and cannot afford to pay the sanction

according to the MSC.
The MSC had jurisdiction over the order regarding the denial of the fee waiver that Chief
Judge Murray executed on based on case No. 161622. Chief Judge Murray executed on a non­
final order that the MSC had jurisdiction over. The Petition reveals that Chief Judge Murray had
no legal basis for ordering sanctions or even issuing an order in No. 353957 on August 11, 2020.

10 In Re Montano, 161622 (Mich. October 5, 2020).
11 in Re Montano, 161475,161670 (Mich. October 5, 2020).
12 Michigan Court of Appeals Events redacted, actions mentioned in this application are highlighted.

6

ORDERS TO STAY IN THE MICHIGAN SUPREME COURT
The Applicant appealed Chief Judge Murray’s August 11, 2020 order in No. 353957 by
filing an Application for Leave to Appeal and a Motion to Waive Fees with the MSC on August
11,2020. The case of In Re Monianon (“No. 161622, 161848”) was initiated with the MSC on
August 11,2020. The record of No. 161622, 161848 is presented in Appendix P.14
The records ofNo. 161475, 161670 (Appendix O) and No. 161622, 161848 (Appendix P)
both reveal the following facts:
•

The opposing party did not file a single document into the case and the case was
uncontested.

•

All filings fees for the Applicant were conditionally waived pending the MSC’s decision
on the motions to waive fees.

•

The MSC failed to issue an order on the motions to waive fees.

The Applicant had not paid fees and the fees had not been waived in both MSC cases as of
October 5,2020. “A motion may not be decided or an order entered by the Court unless all required
documents have been filed and the requisite fees have been paid.” MCR 7.315(D). The MSC did
not have jurisdiction in both cases to issue an order other than one deciding the motions to waive
fees in either case as of October 5, 2020.
The MSC issued orders dismissing No. 161475, 161670 (Appendix C) and No. 161622,
161848 (Appendix D) on October 5, 2020. Both orders do not state any legal authority for the
issuance of the order. Both orders state that the cases were dismissed because the Applicant did
not pay the fees. Each order stated that the Applicant was required to pay sanctions totaling $1500
in two other cases to avoid the clerk of the Court rejecting filings.

13 In Re Montano, 161475, 161670 (Mich. October 5, 2020).
14 Michigan Court of Appeals Events redacted, actions mentioned in this application are highlighted

7

The Applicant is indigent and cannot afford to pay $1500 in sanctions to the Clerk of the
MSC. As a result of the MSC’s orders on October 5, 2020, the Applicant has been deprived of
any ability to appeal or defend himself in any civil action with the MSC.
The MSC made an error of fact stating that the Applicant owed filing fees. The MSC had
failed to rule on the motions to waive fees and did not have jurisdiction to issue either order. The
MSC deprived the Applicant of his right to due process and equal protection under the law as
stated in U.S. Const. Amend. XIV § 1 by dismissing his two cases. The Applicant has been
deprived of his right to appeal and defend himself in the MSC based on the violations.
The actions by the COA in issuing the orders in Appendices A & B were in violation of
the COA’s jurisdiction to rule since the MSC had jurisdiction when the orders were issued. The
COA wrongly sanctioned the Applicant a total of $1500 violating the Applicant’s right to not being
deprived of property stated in U.S. Const. Amend. V. The orders by the COA also deprived the
Applicant of equal protection under the law as stated in U.S. Const. Amend. XIV § 1. Asa result,
the Applicant has been deprived of any means to appeal to or defend himself in the COA.

REASONS FOR GRANTING THE APPLICATION
The Petition for Writ of Certiorari associated with this case is straightforward and shows
two uncontested cases in both the COA and the MSC resulting in orders sanctioning the indigent
Applicant $1500 along with depriving the Applicant of any ability to appeal or defend himself in
either court. Both the COA and the MSC violated jurisdiction and the Applicant’s constitutional
rights in issuing the orders. The Petition is uncontestable, and relief should just be granted.
The deprivation of a poor citizen to even defend himself in any court of law is a travesty
of justice and even more so with the appellate courts in the state of Michigan.
Justice requires this Court to issue a stay of execution of the orders in Appendices A-D.

8

CONCLUSION
The evidence, facts, impact and legal authority overwhelmingly require that a stay of
execution of the decisions by the Michigan Supreme Court in Appendices C-D and the decisions
by the Michigan Court of Appeals in Appendices A-B be stayed pending the disposition of the
Petition for a Writ for Certiorari. The Applicant prays that this Court will grant him the needed
and justified stay of execution.
Respectfully submitted,

(Ofl a
Mario Allan Montano, Applicant
Date: December 18, 2020

9

No. 20-6490

IN THE

SUPREME COURT OF THE UNITED STATES

MARIO ALLAN MONTANO, APPLICANT,
v.
OAKLAND COUNTY CIRCUIT COURT JUDGE, RESPONDENT.

EMERGENCY APPLICATION FOR A STAY OF EXECUTION PENDING THE
DISPOSITION OF THE PETITION FOR WRIT OF CERTIORARI
To the HONORABLE BRETT M. KAVANAGH, Associate Justice of the Supreme Court
of the United States of America and Circuit Justice for the 6th Circuit:

Mario Allan Montano
Applicant, In Pro Se
3647 Springdale Dr.
Little River, SC 29566
(843) 582-7503
almontano29582@gmail.com
December 18, 2020

LIST OF PARTIES
Pursuant to SCt. Rule 14, the following is a list of all parties to the proceeding in the court
whose judgment is sought to be reviewed:
1. APPLICANT - Mario Allan Montano, a man naturally born in the United
States.
2. RESPONDENT - State of Michigan, Oakland County Circuit Court Judge, do
Honorable Kameshia D. Gant.

LIST OF CASES
1. Montano v. Montano, 2012-802216-DO (6th Mich. Cir. Ct. March 28, 2013).
Judgment entered on May 6, 2013.
2. Wimmer v. Montano, 2017-854298-PP (6th Mich. Cir. Ct. June 20, 2017).
Judgment entered on June 20, 2017.
3. In Re Montano, 353802 (Mich. Ct. App. July 14, 2020). Order entered on July
14, 2020.
4. In Re Montano, 353957 (Mich. Ct. App. August 11, 2020). Order entered on
August 11, 2020.
5. In Re Montano, 161475, 161670 (Mich. October 5, 2020). Order entered on
October 5, 2020.
6. In Re Montano, 161622, 161848 (Mich. October 5, 2020). Order entered on
October 5, 2020.

TABLE OF CONTENTS
LIST OF PARTIES

ii

LIST OF CASES

ii

INDEX OF APPENDICES

iv

TABLE OF AUTHORITIES CITED

v

OPINIONS BELOW

1

STAY OF EXECUTION DENIED BY LOWER COURTS

1

JURISDICTION

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

3

APPLICANT IS INDIGENT ACCORDING TO THE MICHIGAN SUPREME COURT.....4
ORDERS TO STAY IN THE MICHIGAN COURT OF APPEALS

4

ORDERS TO STAY IN THE MICHIGAN SUPREME COURT

7

<

REASONS FOR GRANTING THE APPLICATION

8

CONCLUSION

9

iii

INDEX OF APPENDICES
Appendix A

Decision of the Michigan Court of Appeals Dismissing No. 353802 on
July 14, 2020.

Appendix B

Decision of the Michigan Court of Appeals Dismissing No. 353957 on
August 11, 2020.

Appendix C

Decision of the Michigan Supreme Court Dismissing No. 161475,
161670 on October 5, 2020.

Appendix D

Decision of the Michigan Supreme Court Dismissing No. 161622,
161848 on October 5, 2020.

Appendix E

Applicant’s Motion for a Stay of Execution in No. 353802 filed with the
Michigan Court of Appeals on December 6, 2020.

Appendix F

Applicant’s Motion for a Stay of Execution in No. 353957 filed with the
Michigan Court of Appeals on December 6, 2020.

Appendix G

Michigan Court of Appeal’s rejection of Applicant’s Motion for a Stay
in No. 353802 on December 7, 2020.

Appendix H

Michigan Court of Appeal’s rejection of Applicant’s Motion for a Stay
in No. 353957 on December 7, 2020.

Appendix I

Applicant’s Motion for a Stay of Execution in No. 161475, 161670 filed
with the Michigan Supreme Court on December 7, 2020.

Appendix J

Applicant’s Motion for a Stay of Execution in No. 161622, 161848 filed
with the Michigan Supreme Court on December 7, 2020.

Appendix K

Michigan Supreme Court’s rejection of Applicant’s Motion for a Stay
in No. 161475, 161670 on December 7, 2020.

Appendix L

Michigan Supreme Court’s rejection of Applicant’s Motion for a Stay
in No. 161622, 161848 on December 7, 2020.

Appendix M

Record of Michigan Court of Appeals Case 353802

Appendix N

Record of Michigan Court of Appeals Case 353957

Appendix O

Record of Michigan Supreme Court Case 161475, 161670

Appendix P

Record of Michigan Supreme Court Case 161622, 161848

IV

TABLE OF AUTHORITIES CITED
PAGE NUMBER

Constitutional Law
U.S. Const. Amend. V........
U.S. Const. Amend. XIV § 1

3,8

3, 8

Statutory Law
28U.S.C. §2101(f).
MCL 600.244(1 )(d)

3
4

Court Rules
MCR 7.303(B)(1)
MCR 7.315(D)....
SCt. Rule 14.......
SCt. Rule 23.......

5,6
7
ii
3

v

No. 20-6490
IN THE
SUPREME COURT OF THE UNITED STATES
EMERGENCY APPLICATION FOR A STAY PENDING THE DISPOSITION OF A
PETITION FOR WRIT OF CERTIORARI
The Applicant prays that a stay of execution pending the disposition of the Petition for Writ
of Certiorari be issued on the judgments below.
OPINIONS BELOW
The unpublished judgments of the Michigan Supreme Court (“MSC”), the court of last
resort in the State of Michigan to be addressed are:
1. Decision dismissing case No. 161475, 161670 and issuing a filing injunction
against the Applicant issued on October 5,2020 (Appendix C).
2. Decision dismissing case No. 161662, 161848 and issuing a filing injunction
against the Applicant issued on October 5, 2020 (Appendix D).
The unpublished judgments of the Michigan Court of Appeals (“COA”) to be addressed
are:
1. Decision dismissing case No. 353802, sanctioning the Applicant $750 and
issuing a filing injunction against the Apphcant on July 14, 2020 (Appendix
A).
2. Decision dismissing case No. 353957, sanctioning the Applicant $750 and
issuing a filing injunction against the Applicant on August 11, 2020 (Appendix
B).
STAY OF EXECUTION DENIED BY LOWER COURTS
The Applicant filed a motion seeking a stay of execution of the Michigan Court of Appeals
(“COA”) decision in No. 353802 pending disposition of the Petition for Writ of Certiorari on
December 6,2020 (Appendix E at 2 ^ B). The Applicant filed a motion seeking a stay of execution

of the COA decision in No. 353957 pending disposition of the Petition for Writ of Certiorari on
December 6, 2020 (Appendix F at 2 f B). The COA rejected both of the Applicant’s motions on
December 7, 2020 (Appendices, G, H). The COA provided no basis for the rejection of the
motions. The COA denied the Applicant’s petition for a stay of its orders pending petition for
certiorari by its actions on December 7, 2020.
The Applicant filed a motion seeking a stay of execution of the Michigan Supreme Court
(“MSC”) decision in No. 161475,161670 pending disposition of the Petition for Writ of Certiorari
on December 7, 2020 (Appendix I). The motion sought a stay on both the order issued by the
MSC in No. 161475, 161670 as well as the COA decision in No. 353802 (Appendix I at 5 Iff BC).
The Applicant filed a motion seeking a stay of execution of the MSC decision in No.
161622, 161848 pending disposition of the Petition for Writ of Certiorari on December 7, 2020
(Appendix J). The motion sought a stay on both the order issued by the MSC in No. 161622,
161848 as well as the COA decision in No. 353957 (Appendix J at 5 Iff B-C).
The MSC rejected both motions stating that they were rejected for previous reasons stated.
The previous reasons stated were that the Applicant had not paid the sanctions specified in the
orders in Appendices C and D for which he sought a stay of execution. The MSC’s actions denied
the Applicant’s petitions for a stay of execution.
All applicable lower courts have denied the Applicant’s petitions for a stay of execution of
the judgments pending disposition of the Petition for Writ of Certiorari for which the Applicant
seeks a stay from this Court.

2

JURISDICTION
The Applicant filed a Petition for Writ of Certiorari appealing the orders of the MSC in
case Nos. (161475, 161670), (161622, 161848) on November 11,2020. The case of Mario Allan
Montano v. Oakland County Circuit Court Judge] (“this case”) was docketed with the Court on
December 1,2020.
This Court may grant the requested stay of execution pursuant to SCt. Rule 23.1. This
application is presented to this Court pursuant to SCt. Rule 23.2 and 28 U.S.C. §2101(1). The
Applicant has shown his attempt and failure to obtain a stay from all lower courts who could grant
such a stay meeting the expectations in SCt. Rule 23.3.
This Court has jurisdiction and all expectations have been met for this Court to issue a
ruling on this application for a stay of execution.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1. U.S. Const. Amend. V.
2. U.S. Const. Amend. XIV § 1.

STATEMENT OF THE CASE
The Honorable Kameshia D. Gant (“the Respondent”) was assigned to the case of
Montano v. Montano2 (“2012-802216-DO”) and Wimmer v. Montano3 (“2017-854298-PP”) on
May 4, 2019.

' Mario A Han Montano v. Oakland County Circuit Court Judge, No. 20-6490 (U.S.).
2 Montano v. Montano, 2012-802216-DO (6th Mich. Cir. Ct. March 28, 2013).
3 Wimmer v. Montano, 2017-8542 98-PP (6th Mich. Cir. Ct. June 20, 2017).

3

APPLICANT IS INDIGENT ACCORDING TO THE MICHIGAN SUPREME COURT
Chief Justice Bridget M. McCormack of the MSC issued an order granting the Applicant a
waiver of filing fees in the case of Wimmer v. Montano4 (“No. 161121”) on March 18, 2020. The
fee to file a regular motion in the MSC is $75 pursuant to MCL 600.244(1 )(d). By issuing such
an order, Chief Justice McCormack affirmed that the Applicant could not afford $75 to pay for a
motion fee.
ORDERS TO STAY IN THE MICHIGAN COURT OF APPEALS
Mario Allan Montano (“the Applicant”) filed a Complaint for Writ of Superintending
Control of the Respondent and a Motion to Waive Fees with the COA on June 11,2020. The case
of In Re Montano5 (“No. 353802”) was initiated with the COA on June 11, 2020. The Record of
No. 353802 is presented in Appendix M.6 The Applicant paid no fees for his filing. The Motion
to Waive Fees contained the same evidence that Chief Justice McCormack had seen to grant the
Applicant a fee waiver on March 18, 2020. The record shows that the Respondent has not filed a
single document into No. 353802 since the day the case was initiated. No. 353802 is uncontested.
The Honorable Elizabeth L. Gleicher (“Judge Gleicher”) issued an order denying the
Applicant’s motion to waive fees in No. 353802 on June 16, 2020. The order required the
Applicant to pay the conditionally waived filing fees by July 7, 2020 (Id. at 1, Event 7) . The
Applicant appealed Judge Gleicher’s order by filing an interlocutory application for leave to appeal
and a motion to waive fees with the MSC on June 16, 2020. The case of In Re Montano7 (“No.
161475”) was initiated with the MSC on June 16, 2020. The MSC obtained discretionary review

4 Wimmer v. Montano, 161121 (Mich. May 26, 2020).
3 In Re Montano, 353802 (Mich. Ct. App. July 14, 2020).
6 Michigan Supreme Court Events redacted, actions mentioned in this application are highlighted.
7 In Re Montano, 161475 (Mich. October 5, 2020).

4

jurisdiction over Judge Gleicher’s order denying a fee waiver pursuant to MCR 7.303(B)(1). Judge
Gleicher’s order denying a fee waiver had not reached final disposition as of June 16, 2020.
The Applicant filed a filed a Complaint for Writ of Superintending Control of the
Respondent and a Motion to Waive Fees with the COA on June 25, 2020.
Montano8 (“No. 353957”) was initiated with the COA on June 25, 2020.

The case of In Re
The record of Case

353957 is presented in Appendix N.9 The Motion to Waive Fees contained the same evidence that
Chief Justice McCormack had seen to grant the Applicant a fee waiver on March 18, 2020. The
Applicant paid no fees for his filing. The record shows that the Respondent has not filed a single
document into No. 353957 since the day the case was initiated. No. 353957 is uncontested.
The Honorable Christopher M. Murray (“Chief Judge Murray”) issued an order
dismissing uncontested case No. 353802 for the Applicant’s failure to pay court fees on July 14,
2020 (Appendix A). The order sanctioned the Applicant $750 and required that the Clerk reject
all Applicant filings in non-criminal cases till the sanction was paid. The Applicant is indigent
and cannot afford to pay the sanction as affirmed by the MSC on March 18, 2020.
The MSC had jurisdiction over the order regarding the fee waiver denial that Chief Judge
Murray executed upon based on case No. 161475. Chief Judge Murray executed on a non-final
order that the MSC had jurisdiction over. The Petition reveals that Chief Judge Murray had no
legal basis for ordering sanctions or even issuing an order in No. 353802 on July 14, 2020. The
Applicant has been deprived of his due process right to appeal or defend himself in non-criminal
COA cases since July 14, 2020 based on an order issued against him without any jurisdiction.
Judge Gleicher issued an order denying the Applicant’s motion to waive fees in No. 353957
on July 14, 2020 (Appendix N at 1, Event: 6). The order required the Applicant to pay the

8 In Re Montano, 353957 (Mich. Ct. App. August 11, 2020).
9 Michigan Supreme Court Events redacted, actions mentioned in this application are highlighted.

5

conditionally waived filing fees by August 4, 2020. The Applicant appealed Judge Gleicher’s
order by filing an interlocutory application for leave to appeal and a motion to waive fees with the
MSC on July 15, 2020. The case of In Re Montano10 (“No. 161622”) was initiated with the MSC
on July 15, 2020. The MSC obtained discretionary review jurisdiction over Judge Gleicher’s order
denying a fee waiver pursuant to MCR 7.303(B)(1). Judge Gleicher’s order denying a fee waiver
had not reached final disposition as of July 15, 2020 .
The Applicant appealed Chief Judge Murray’s July 14, 2020 order in No. 353802
(Appendix A) by filing an Application for Leave to Appeal and a Motion to Waive Fees with the
MSC on July 19, 2020. The case of In Re Montanou (“No. 161475,161670”) was initiated with
the MSC on July 19, 2020. The record ofNo. 161475, 161670 is presented in Appendix O.12
Chief Judge Murray issued an order dismissing uncontested case No. 353957 for the
Applicant’s failure to pay court fees on August 11,2020 (Appendix B). The order sanctioned the
Applicant $750 and requires that the Clerk reject all Applicant filings in non-criminal cases till the
sanctions have been paid. The Applicant is indigent and cannot afford to pay the sanction
according to the MSC.
The MSC had jurisdiction over the order regarding the denial of the fee waiver that Chief
Judge Murray executed on based on case No. 161622. Chief Judge Murray executed on a nonfinal order that the MSC had jurisdiction over. The Petition reveals that Chief Judge Murray had
no legal basis for ordering sanctions or even issuing an order in No. 353957 on August 11, 2020.

10 In Re Montano, 161622 (Mich. October 5, 2020) .
11 In Re Montano, 161475, 161670 (Mich. October 5, 2020).
12 Michigan Court of Appeals Events redacted, actions mentioned in this application are highlighted.'

6

1

I

i

ORDERS TO STAY IN THE MICHIGAN SUPREME COURT
The Applicant appealed Chief Judge Murray’s August 11, 2020 order in No. 353957 by
filing an Application for Leave to Appeal and a Motion to Waive Fees with the MSC on August

i

11, 2020. The case of In Re Montano13 (“No. 161622, 161848”) was initiated with the MSC on

i

i

1

August 11, 2020. The record of No. 161622, 161848 is presented in Appendix P.14
The records of No. 161475, 161670 (Appendix O) and No. 161622, 161848 (Appendix P)
both reveal the following facts:
•

The opposing party did not file a single document into the case and the case was
uncontested.

•

All filings fees for the Applicant were conditionally waived pending the MSC’s decision
on the motions to waive fees.

•

The MSC failed to issue an order on the motions to waive fees.

J
The Applicant had not paid fees and the fees had not been waived in both MSC cases as of
October 5,2020. “A motion may not be decided or an order entered by the Court unless all required

!

■!

documents have been filed and the requisite fees have been paid.” MCR 7.315(D). The MSC did
not have jurisdiction in both cases to issue an order other than one deciding the motions to waive
fees in either case as of October 5, 2020.
The MSC issued orders dismissing No. 161475, 161670 (Appendix C) and No. 161622,

1

161848 (Appendix D) on October 5, 2020. Both orders do not state any legal authority for the
issuance of the order. Both orders state that the cases were dismissed because the Applicant did
not pay the fees. Each order stated that the Applicant was required to pay sanctions totaling $1500
in two other cases to avoid the clerk of the Court rejecting filings.
1

5
1
1
n In Re Montano, 161475, 161670 (Mich. October 5, 2020).
14 Michigan Court of Appeals Events redacted, actions mentioned in this application are highlighted

7

I

1
1

1

CONCLUSION
The evidence, facts, impact and legal authority overwhelmingly require that a stay of
execution of the decisions by the Michigan Supreme Court in Appendices C-D and the decisions
by the Michigan Court of Appeals in Appendices A-B be stayed pending the disposition of the
Petition for a Writ for Certiorari. The Applicant prays that this Court will grant him the needed
and justified stay of execution.
Respectfully submitted,

Mario Allan Montano, Applicant
Date: December 18, 2020

9

